No. 20-579

In the Supreme Court of the United States
ZIMMIAN TABB, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains 921
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury the foregoing is true and correct. Executed on
March 3, 2021.

/s John P. Elwood_____
John P. Elwood
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com
March 3, 2021

